No. 20-827

 

In THE
Supreme Court of the United States

UNITED STATES, Petitioner,
Vv.

ZAYN AL-ABIDIN MUHAMMAD HUSAYN, AKA ABU
ZUBAYDAH, ET AL., Respondents

On Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

BRIEF OF THE FLOYD ABRAMS INSTITUTE
FOR FREEDOM OF EXPRESSION, KNIGHT
FIRST AMENDMENT INSTITUTE AT COLUMBIA
UNIVERSITY, CITIZENS FOR RESPONSIBILITY
AND ETHICS IN WASHINGTON, AND NATIONAL
SECURITY ARCHIVE AS AMICI CURIAE IN
SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,757 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2021.

 

Wilson-Epes Printing Co., Inc.
